February 21, 2001
Evaluation Report No. 01-001


Review of Processes Used to
Verify and Validate Government
Performance Results Act
Performance Data
Federal Deposit Insurance Corporation                                      Congressional Relations and Evaluations
801 17th Street NW Washington DC 20434                                                 Office of Inspector General


DATE:                                    February 21, 2001

MEMORANDUM TO:                           Fred Selby
                                         Director, Division of Finance



FROM:                                    Stephen M. Beard
                                         Assistant Inspector General

SUBJECT:                                 Review of Processes Used to Verify and Validate Government
                                         Performance Results Act Performance Data (EVAL-01-001).

The Office of Congressional Relations and Evaluations (OCRE) completed its review designed
to evaluate the degree to which FDIC program offices are verifying and validating information
presented in FDIC Government Performance Results Act (GPRA) performance reports. The
intent of this review was to evaluate the corporate-wide processes and practices used to verify
and validate performance data.

We provided the Division of Finance (DOF) with our interim observations to assist the division
in its development of the 2001 Annual Performance Plan in October and December 2000. We
reported that descriptions for verifying and validating data related to performance goals could be
improved and DOF took steps to incorporate our observations into the 2001 Annual Performance
Plan.

We also evaluated the verification and validation procedures used for data related to performance
goals in the FDIC’s Quarterly Performance Report – Second Quarter 2000. Overall,
documentation provided by GPRA divisional coordinators supported the data included for 15 of
the 16 goals. However, in some cases, there was not documentation to support that verification
and validation procedures were performed. Moreover, divisions relied on information systems
controls as one means for verifying data, but there was no support to indicate that the divisions
knew whether system controls were operating as intended. We also found that divisions were
beginning to use surveys to obtain performance data, but coordination among divisions in
developing these surveys could be better. We made recommendations to address each of these
issues.

Finally, in response to a request from your division, we researched what approaches other federal
agencies were taking to develop an overall statement on data verification and validation in their
annual performance reports. We found that each of the agencies we contacted develops such a
statement, and one agency utilizes certifications from division managers as a basis. The OIG
continues to believe that addressing data quality would improve the value and usefulness of
future performance reports. Accordingly, we recommended that DOF work with GPRA
divisional coordinators to develop a mechanism to allow responsible division officials to certify
that data reported has been verified and validated, which will serve to support an overall
statement on data quality in future annual reports.

We provided DOF with the draft report on January 19, 2001. DOF provided a written response
dated February 8, 2001. Management agreed with each of our recommendations. DOF’s written
response is included in its entirety as Appendix I of this report. Appendix II presents our
assessment of DOF’s response and shows that we have a management decision for each
recommendation.




                                                 2
EXECUTIVE SUMMARY

The Office of Congressional Relations and Evaluations (OCRE) completed its review designed
to evaluate the degree to which FDIC program offices are verifying and validating information
presented in FDIC Government Performance Results Act (GPRA) performance reports. This
review differed from two earlier OCRE reviews, which assessed the adequacy and reliability of
information systems and documentation supporting performance data related to specific
performance goals.1 The intent of this review was to evaluate the corporate-wide processes and
practices used to verify and validate performance data.

We provided a memorandum to the former Chief, Business Planning Section, in October 2000
with our interim observations. We did so at her request to assist the Division of Finance (DOF)
in developing the 2001 Annual Performance Plan. We reported that, in reviewing the 2000
Annual Performance Plan, we observed that the completeness of the descriptions for verifying
and validating data related to performance goals and targets varied. GPRA divisional
coordinators told us they were focused on improving the verification and validation sections in
the 2001 Annual Performance Plan as a result of DOF and OCRE's efforts. After completion of
our fieldwork, the Office of Inspector General’s (OIG) Office of Quality Assurance and OCRE
were provided a copy of the draft 2001 Annual Performance Plan for review. On December 11,
2000, we jointly provided DOF's Business Planning Section our observations. While some
improvement had been made, we noted that a number of the descriptions should be reviewed to
ensure that the discussion of data verification and validation relates to the associated indicators
and targets.

The second phase of the review focused on evaluating the verification and validation procedures
used for 16 performance goals reported on by the Division of Supervision (DOS), Division of
Resolutions and Receiverships (DRR), Division of Insurance (DOI), and Division of Compliance
and Consumer Affairs (DCA) in the FDIC Quarterly Performance Report - Second Quarter
2000. Overall, documentation provided by GPRA divisional coordinators supported the data
included in the FDIC Quarterly Performance Report - Second Quarter 2000 for 15 of the 16
goals. There was no second quarter data for one goal. During our interviews, GPRA divisional
coordinators provided adequate explanations of processes in place to verify and validate
performance data. Nevertheless, divisions could better document those processes.

Moreover, divisions relied on information systems controls as one means for verifying data, but
GPRA divisional coordinators did not have documentation to support those controls and some
referred the OIG to the Division of Information Resources Management (DIRM). We also found
that divisions were beginning to use surveys to obtain performance data, but coordination among
divisions in developing these surveys could be better.



1
  OCRE reviewed several of FDIC’s GPRA goals and documentation in the past. Specifically, two reports were
issued, The Division of Resolutions and Receiverships Reporting in Termination Activity in FDIC’s Quarterly
Performance Reports (EVAL-98-003) and The Division of Compliance and Consumer Affairs’ Reporting of
Examinations and Activities in FDIC Quarterly Performance Reports (EVAL-00-002).



                                                       3
Finally, in response to a request from DOF, we researched what approaches other federal
agencies were taking to develop an overall statement on data verification and validation in
annual performance reports. The OIG continues to believe that addressing data quality would
improve the value and usefulness of future performance reports.2

Recommendations

We recommended that the Director, DOF:

1. Re-emphasize to divisions and offices the need to retain documentation indicating
   verification and validation procedures have been applied and provide further guidance or
   examples of what constitutes adequate documentation.

2. Discuss information systems controls in more detail with GPRA divisional coordinators and
   DIRM officials to ensure that information systems controls relied upon for verification and
   validation of performance data are in place and operating as intended.

3. Consider adding language to GPRA guidance to suggest that divisions and offices consult
   with the Division of Research and Statistics (DRS) when developing surveys to collect data.

4. Work with GPRA divisional coordinators to develop a mechanism to allow responsible
   division officials to certify that data reported each quarter has been verified and validated
   which will serve to support an overall statement on data quality in future annual reports.

Management Response

We provided DOF with the draft report on January 19, 2001. DOF provided a written response
dated February 8, 2001. DOF agreed with, and provided the requisites of a management decision
for each of our recommendations. With respect to recommendation four, DOF decided to obtain
annual, instead of quarterly, certifications. We agreed with DOF's rationale for annual
certifications.




2
  In July 2000, in response to a request from Senator Thompson, Chairman of the Governmental Affairs Committee, the
FDIC OIG stated that “including a discussion of data quality in future FDIC annual performance reports would improve
the value and usefulness of the reports.”


                                                         4
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY........................................................................................................... 3

BACKGROUND............................................................................................................................ 6

OBJECTIVE, SCOPE, AND METHODOLOGY...................................................................... 7

RESULTS....................................................................................................................................... 8

   Verification and Validation Processes Are Evolving ............................................................. 8

   Processes Exist to Verify and Validate Second Quarter Performance Data ....................... 9

   FDIC Should Consider Including An Overall Statement on Data Quality in Annual

   Performance Reports .............................................................................................................. 11

CONCLUSION AND RECOMMENDATIONS ...................................................................... 13

CORPORATION COMMENTS ............................................................................................... 13

APPENDIX I: CORPORATION COMMENTS...................................................................... 14

APPENDIX II: MANAGEMENT RESPONSE TO RECOMMENDATIONS..................... 16




                                                                       5
BACKGROUND

GPRA is the primary framework through which Federal agencies are required to set strategic
goals, measure performance, and report on the degree to which goals were met. Specifically,
there are three key documents under GPRA to help agencies manage for results:

•   Strategic plans that provide the framework for implementing all other parts of GPRA.
•   Annual performance plans that set annual goals with measurable target levels of
    performance.
•   Annual performance reports that compare actual performance to the annual goals.

Office of Management and Budget (OMB) Circular No. A-11 Part 2, Preparation and
Submission of Strategic Plans, Annual Performance Plans, and Annual Program Performance
Reports, provides guidance for the implementation of GPRA. It requires that performance plans
describe the means to be used to verify and validate measured values of performance. Both
verification and validation are important to ensure that users of the performance reports believe
that the data is credible. The General Accounting Office (GAO) has defined the terms as
follows:

•   Verification includes the assessment of data completeness, accuracy, consistency, and related
    quality control practices.
•   Validation is the assessment of whether the data are appropriate for the performance
    measure.

In accordance with GPRA, FDIC developed a strategic plan for the period 1998-2003 and
performance plans for 1998, 1999, and 2000. The FDIC Strategic Plan contains goals and
objectives that have a 6-year strategic focus. The FDIC Strategic Plan is implemented through
the Annual Performance Plan that is augmented by individual FDIC division and office plans.
FDIC issued its first annual performance report to the President and Congress in March 2000.
FDIC performance reports are also prepared quarterly for internal use.

As the GPRA process has evolved, more attention has been given to performance results.
Accordingly, congressional attention is focusing on the processes used by agencies to verify and
validate data. GAO reported that congressional leadership had stated in a letter to the Director of
the OMB that performance plans based on incomplete or inaccurate data would be of little use to
the Congress or the executive branch.3 Moreover, GAO reported that to credibly report progress
towards goals and use performance reports for program management, agencies need to have
sufficient performance information.

Indeed, FDIC Circular 4100.2, Verification and Validation Guidelines for Federal Deposit
Insurance Corporation (FDIC) Performance Reporting, dated March 30, 1999, emphasizes the
importance of data quality and assigns roles and responsibilities for ensuring the accuracy of
FDIC quarterly and annual performance reports. Specifically, it states “due to the high visibility
3
 Performance Plans: Selected Approaches for Verification and Validation of Agency Performance Information
(GAO/GGD-99-139) GAO report dated July 1999 and Managing for Results: Challenges Agencies Face in Producing
Credible Performance Information (GAO/GGD-00-52) GAO report dated February 2000.


                                                     6
of the annual and quarterly performance reports, as well as the presentation of data from prior
years, data integrity within and between reporting periods is critical.”

Under the performance reporting process, FDIC’s circular states that each FDIC division is
responsible for:

(1) ensuring that performance results are accurate and comparable within and between reporting
    periods;
(2) identifying the systems and procedures used to collect, verify and validate performance
    results; and
(3) retaining documentation indicating that identified verification and validation procedures have
    been applied and allowing independent recalculation of performance results.

Each division submits performance information to DOF's Business Planning Section on a
quarterly basis. DOF reviews the information for reasonableness and consistency, combines
performance report submissions from each division into a single quarterly performance report,
and presents the report to FDIC's Operating Committee. FDIC’s Chairman submits an annual
performance report to the President and Congress.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our review was to determine the degree to which program offices are adequately
verifying and validating information presented in FDIC performance reports. Our review
focused on the processes undertaken by divisions and offices to verify and validate the data
reported and did not address other aspects of “validity” such as the appropriateness of the
agency’s choice of performance measures in relation to its goals and objectives. As part of this
review, we also reviewed the verification and validation descriptions included in the 2000
Annual Performance Plan. In addition, DOF's Business Planning Section asked that we research
approaches other federal agencies were taking to develop an overall statement on data
verification and validation in annual performance reports.

We completed the review in two phases so that our observations about verification and validation
descriptions included in the 2000 Annual Performance Plan could be considered as the
Corporation was drafting its 2001 Annual Performance Plan. With that in mind, we first focused
on understanding and evaluating the verification and validation processes described in the 2000
Annual Performance Plan. Accordingly, we:

•   reviewed the FDIC Strategic Plan, 2000 Annual Performance Plan, draft 2001 Annual
    Performance Plan, FDIC Quarterly Performance Report-First Quarter 2000 and FDIC
    Quarterly Performance Report-Second Quarter 2000;
•   interviewed GPRA divisional coordinators from DCA, DOI, DRR, DOS, Division of
    Administration, DIRM, DRS, Legal Division, Office of Diversity and Economic
    Opportunity, and Office of Internal Control Management;
•   reviewed FDIC Circular 4100.2, Verification and Validation Guidelines for FDIC
    Performance Reporting;


                                                7
•   reviewed GPRA-related reports and guidance from the GAO and OMB; and
•   reviewed GPRA reports from other selected federal agencies.

In the second phase of the review, we selected 16 goals reported on by DOS, DRR, DOI, and
DCA in the FDIC Quarterly Performance Report - Second Quarter 2000. We selected those
divisions because they had the most goals in the 2000 Annual Performance Plan. For each goal,
we evaluated whether supporting documenting existed to indicate that second quarter
performance data had been verified and validated by GPRA divisional coordinators. We also
evaluated whether the verification and validation processes were consistent with the approaches
described in the 2000 Annual Performance Plan and as described to us by the respective GPRA
divisional coordinators. To accomplish this, we reviewed the supporting documentation
provided by DOS, DRR, DOI, and DCA GPRA divisional coordinators. However, we did not
trace the information reported in the FDIC Quarterly Performance Report - Second Quarter
2000 to source documents.

Finally, in this phase, we researched three Federal agencies’ performance plans on the Internet
and interviewed an official from the Department of Education to learn about the approach they
used to develop a data quality assurance statement in their annual performance report. We
selected three agencies that were rated in the top half of the May 3, 2000, Performance Report
Scorecard from The Mercatus Center at George Mason University. OMB does not currently
require that agencies include such a statement in their performance reports, but suggested a brief
commentary on the general quality of the actual performance information contained in the annual
report may be useful in portraying the accuracy or validity of the data.

We conducted our review from June 2000 through November 2000 in accordance with the
President's Council on Integrity and Efficiency's Quality Standards for Inspections.


RESULTS

Verification and Validation Processes Are Evolving

FDIC included a description of the verification and validation process for each goal in its 2000
Annual Performance Plan. The descriptions included in the 2000 Annual Performance Plan
provided the basis for understanding the credibility of data included in performance reports.
The former Chief, Business Planning Section, DOF asked that we provide our interim
observations by the end of October 2000 to assist with the development of the 2001 Annual
Performance Plan. We provided a memorandum on October 24, 2000 with our observations.
Generally, we observed the completeness of the descriptions for verifying and validating
performance goals and targets varied in the 2000 Annual Performance Plan. Specifically, we
noted the following:

•   It was not clear from our discussions with officials in the divisions and offices and our
    review of the 2000 Annual Performance Plan whether the terms "verification" and
    "validation" were interpreted and used consistently.




                                                 8
•   The level of detail provided about the verification and validation processes varied in the 2000
    Annual Performance Plan. For some goals, the verification and validation description may
    have only identified the name of a system used to produce data. In other cases, the
    description explained why the data provided by the system was appropriate and outlined the
    quality controls for the data within the system.
•   The information included on the verification and validation processes was not always clearly
    related to indicators or targets.

One GPRA divisional coordinator told us that in the past, the verification and validation
processes had not received as much attention as developing goals, targets and indicators. Some
divisional coordinators stated the GPRA process was continuing to evolve and that more focus
would be put on the verification and validation processes in the future. During the course of our
review, DOF was addressing the issue of terminology with GPRA divisional coordinators in
preparation for the 2001 Annual Performance Plan.

Following our fieldwork, DOF provided a copy of the draft 2001 Annual Performance Plan for
the OIG's review. On December 11, 2000, the OIG issued a memorandum to DOF's Business
Planning Section that included OCRE’s observations on the draft 2001 Annual Performance
Plan. Although FDIC continues to make progress, consistent with our observations on the 2000
Annual Performance Plan in the memorandum we provided on October 24, 2000, we observed
that the completeness of some of the verification and validation descriptions varied. We noted
that in some cases, goals for the 2001 plan did not have descriptions of the verification and
validation processes for all targets and indicators. Because DOF Business Planning Section
officials and GPRA divisional coordinators told us they are working to address this issue, we did
not believe a formal recommendation was necessary.


Processes Exist to Verify and Validate Second Quarter Performance Data

We found that documentation provided by GPRA divisional coordinators supported the data
included in the FDIC Quarterly Performance Report - Second Quarter 2000 for 15 of the 16
goals that we reviewed. For the remaining goal, there was no data reported in the second quarter
and, the report adequately explained why. However, we observed that divisions:

•   Could better document verification and validation procedures performed;
•   Obtained data from information systems, but did not know whether system controls designed
    to ensure data credibility were adequate; and
•   Could benefit by coordinating development of surveys designed to obtain performance data
    with DRS.




                                                 9
The data we obtained from the GPRA divisional coordinators supported the results in the FDIC
Quarterly Performance Report - Second Quarter 2000. However, FDIC Circular 4100.2,
Verification and Validation Guidelines for Federal Deposit Insurance Corporation (FDIC)
Performance Reporting specified that divisions and offices shall "retain documentation
indicating that the identified verification and validation procedures have been applied.” During
our interviews, GPRA divisional coordinators provided adequate explanations of processes in
place to verify and validate performance data. Nevertheless, divisions could better document
those processes. We recommended DOF re-emphasize to divisions and offices the need to retain
documentation indicating verification and validation procedures have been applied and provide
further guidance or examples of what constitutes adequate documentation (Recommendation 1).

Given the overall importance of data verification and validation processes in providing assurance
that performance results are credible, it is critical that divisions and offices document the
verification and validation procedures performed. Moreover, without this minimal step, the
Corporation is not in a good position to make an overall attestation statement in its annual
performance report on data quality. As discussed later in the report, such a statement is not
required currently but is something other agencies do and we believe to be a good idea.

Based on our interviews and review of the supporting documentation, we found that DCA, DOI,
DOS and DRR used the following methods to verify and validate data:

Table 1: Data Verification and Validation Methods
  Verification and Validation Method          Number of times used
 Information systems controls                         11
 GPRA divisional coordinator review                   8
 Internal control reviews                              3
 Manual reconciliation                                3
 OIG or GAO review                                    3
 Spreadsheets                                         1
 Survey scanning software                             1
Source: OIG Analysis

The most common verification and validation method was information systems controls with
11 occurrences. However, GPRA divisional coordinators did not have documentation to support
those controls and some referred the OIG to DIRM. For instance, one GPRA divisional
coordinator stated that if DIRM developed and approved an information system, it must have
adequate controls.4 We believe more needs to be done to ensure the specific information systems
controls being relied upon for GPRA are operating as intended.




4
  It should be noted that GAO identified weaknesses in FDIC’s information systems general controls in its 1999 financial
statement audit, Financial Audit: Federal Deposit Insurance Corporation’s 1999 and 1998 Financial Statements
(GAO/AIMD-00-157). In response to that report, the Corporation stated that it will continue information systems
improvements.


                                                          10
In our October 24, 2000 memorandum, we suggested that it might be useful to use consistent
terminology to describe similar verification and validation processes such as information systems
controls. Moreover, there may be other standard controls that exist but are not described. We
suggested that DOF provide the program offices with a list of terminology that describes some
control techniques for program offices to consider as they develop the 2001 Annual Performance
Plan. Program offices would be responsible for determining which control techniques apply, but
the terminology used throughout the plan would be based on a common foundation.

Given the reliance of data obtained from information systems, we recommended that DOF
discuss information systems controls in more detail with GPRA divisional coordinators and
DIRM officials to ensure that information systems controls relied upon for verification and
validation of performance data are in place and operating as intended (Recommendation 2). In
addition, FDIC Circulars 1301.2 Data Administration and 1301.3 Data Stewardship established
policies, standards, and programs whose purposes included efforts to "…minimize data
duplication and eliminate inconsistencies…" and "… promote reliable information.” These
programs might provide GPRA divisional coordinators with information on the quality of GPRA
data and on information systems controls. Consistent with our previous recommendation, this
should help ensure that the systems controls are consistently described and understood by those
responsible for verifying and validating the data reported and may provide the basis for an
overall statement on data quality in future performance reports.

We also found that many divisions are beginning to survey seminar participants, publication
readers, and others to gather GPRA-related data. There have been some cross-divisional
meetings to discuss surveying techniques. However, a GPRA divisional coordinator suggested,
and we agreed, that it would be beneficial if there was additional coordination between divisions.
Accordingly, we recommended DOF consider adding language to GPRA guidance to suggest
that divisions and offices consult with DRS when developing surveys to collect data
(recommendation 3). DRS has staff available who can work with divisions and offices to help
ensure that surveys are properly designed to collect valid data.


FDIC Should Consider Including An Overall Statement on Data Quality in Annual
Performance Reports

Finally, in response to a request from DOF, we researched what approaches other federal
agencies were taking to develop an overall statement on data verification and validation in
annual performance reports. The following table illustrates the different approaches:




                                               11
Table 2: Other Agencies’ Reporting Approaches
             Agency                   Data Verification and Validation Reporting
 Department of Education        • Overall statement of the credibility of performance data.
 (Education)                    • Separate descriptions of the verification and validation
                                   processes for each goal/objective.
 Social Security Administration • Overall statement on data verification and validation.
                                • There was not a separate discussion of data verification
                                   and validation with each goal.
 Department of the Interior     • Overall statement on the credibility of performance data.
                                • Separate descriptions of the verification and validation
                                   processes for each goal.
Source: Selected Agencies’ 1999 Performance Reports

We also obtained additional information from Education on their overall statement on data
quality. As part of its annual performance plan process, there is an Attestation of Performance
Indicator Data Quality Statement. This statement, signed by the responsible division official,
included the following points:

•   the appropriate measure was selected;
•   the data collected was accurate, calculated correctly, and timely;
•   the measures were reported accurately;
•   a formal plan for further verification and validation of the data quality was described; and
•   any recommendations for improvements to improve the quality of the indicator and the data
    were stated.

An Education official stated that this attestation increased accountability. Education also has a
statement in their strategic plan that all managers will assert that the data used for their
program’s performance measures are reliable and valid, or will have plans for their
improvement. In addition, Education has a Data Quality Self-Evaluation Checklist which
emphasizes that a written clear definition of key terms has been communicated to data providers.

We believe an overall statement on data quality would give the performance process increased
credibility with Congress, GAO, and the public. As previously stated, FDIC Circular 4100.2,
Verification and Validation Guidelines for Federal Deposit Insurance Corporation (FDIC)
Performance Reporting specified that divisions and offices shall "retain documentation
indicating that the identified verification and validation procedures have been applied.” Under
this circular, it appears GPRA divisional coordinators might be able to provide some type of
certification that verification and validation procedures have been applied. We recommended
DOF work with GPRA divisional coordinators to develop a mechanism to allow responsible
division officials to certify that data reported each quarter has been verified and validated which
will serve to support an overall statement on data quality in future annual reports
(Recommendation 4).




                                                  12
CONCLUSION AND RECOMMENDATIONS

As the GPRA process has evolved, more attention has been placed on the verification and
validation processes by GPRA divisional coordinators and DOF officials. However, we did
observe some areas where existing verification and validation processes and practices could be
improved to better enable FDIC to attest to the credibility of data reported in future annual
performance reports. Consequently, we recommended that the Director, DOF:

1. Re-emphasize to divisions and offices the need to retain documentation indicating
   verification and validation procedures have been applied and provide further guidance or
   examples of what constitutes adequate documentation.

2. Discuss information systems controls in more detail with GPRA divisional coordinators and
   DIRM officials to ensure that information systems controls relied upon for verification and
   validation of performance data are in place and operating as intended.

3. Consider adding language to GPRA guidance to suggest that divisions and offices consult
   with DRS when developing surveys to collect data.

4. Work with GPRA divisional coordinators to develop a mechanism to allow responsible
   division officials to certify that data reported each quarter has been verified and validated
   which will serve to support an overall statement on data quality in future annual reports.


CORPORATION COMMENTS

We provided DOF with the draft report on January 19, 2001. The Associate Director for
Corporate Planning, Budget and Analysis provided DOF’s written response dated
February 8, 2001. DOF agreed with, and provided the requisites of a management decision for
each of our recommendations. With respect to recommendation four, DOF decided to obtain
annual, instead of quarterly, certifications. We agreed with DOF's rationale for annual
certification. DOF’s written response is included in its entirety as Appendix I of this report.
Appendix II presents our assessment of DOF’s response and shows that we have a management
decision for each recommendation.




                                                13
APPENDIX I: CORPORATION COMMENTS




                              14
APPENDIX I: CORPORATION COMMENTS




                              15
APPENDIX II: MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of
management decisions. The information for management decisions is based on DOF management's written response to our draft
report.

                                                                        Expected or         Documentation                  Management
 Rec.                                                                     Actual           that will Confirm    Monetary    Decision:
 Number    Corrective Action: Taken or Planned / Status               Completion Date        Final Action       Benefits    Yes or No

    1      DOF will include a reminder in each quarter’s call for     First Quarter 2001   (1) First Quarter       $0         Yes
           performance results that documentation should be                                    2001 call for
           retained in accordance with Circular 4100.2. DOF will                               performance
           also emphasize this requirement in future data calls and                            results
           update the circular to include examples of the                                  (2) Revised
           documentation that should be retained.                                              Circular
                                                                                               4100.2

    2      DOF will encourage GPRA divisional coordinators to         First Quarter 2001   First Quarter 2001      $0         Yes
           work with DIRM to identify and confirm the existence                            call for
           and reliability of the specific information systems                             performance
           controls they are relying upon in the operation of their                        results
           divisional information systems.


    3      DOF will include a discussion of survey tools when it      First Quarter 2001   (1) First Quarter       $0         Yes
           revises Circular 4100.2 and will specifically state that                            2001 call for
           divisions and offices should consult with DRS when                                  performance
           developing survey instruments.                                                      results
                                                                                           (2) Revised
                                                                                               Circular
                                                                                               4100.2




                                                                       16
                                                                       Expected or          Documentation                 Management
Rec.                                                                     Actual            that will Confirm   Monetary    Decision:
Number   Corrective Action: Taken or Planned / Status                Completion Date         Final Action      Benefits    Yes or No

  4      DOF now requires that division and office directors         (1) Certification     (1) Copies of          $0         Yes
         certify the completeness and reliability of annual          forms were issued     certification
         performance data they submit. The information from          in January 2001.      request were
         those certifications will be consolidated into an overall                         provided with
         statement on data quality in the 2000 Program               (2) Overall           management
         Performance Report and subsequent program                   statement on data     response
         performance reports. This will be done annually.            quality will be in
                                                                     the 2000 Program      (2) 2000 Program
                                                                     Performance Report    Performance
                                                                     due to be issued in   Report
                                                                     March 2001.




                                                                      17
